         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Briefing Report

       EPA Action Needed to Ensure
       Drinking Water State Revolving Fund
       Projects Meet the American Recovery
       and Reinvestment Act Deadline of
       February 17, 2010

       Report No. 10-R-0049

       December 17, 2009
Report Contributors:                             Janet Kasper
                                                 Matthew Simber
                                                 Khadija Walker
                                                 Lawrence Gunn
                                                 Melinda Burks
                                                 Nancy Dao




Abbreviations

ARRA           American Recovery and Reinvestment Act of 2009
DWSRF          Drinking Water State Revolving Fund
EPA            U.S. Environmental Protection Agency
HQ             Headquarters
OIG            Office of Inspector General
OMB            Office of Management and Budget
PBR            Project Benefits Reporting (EPA Drinking Water State Revolving Fund Program)
SRF            State Revolving Fund




Cover photo:     Photos taken by EPA OIG at an ARRA DWSRF project in North Manchester,
                 Indiana.
                       U.S. Environmental Protection Agency                                               10-R-0049
                                                                                                   December 17, 2009
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review           EPA Action Needed to Ensure Drinking Water State
                                 Revolving Fund Projects Meet the American Recovery
We conducted this audit to
determine how the U.S.
                                 and Reinvestment Act Deadline of February 17, 2010
Environmental Protection
Agency (EPA) is ensuring          What We Found
compliance with American
Recovery and Reinvestment        Facing a myriad of challenges, EPA and the States used various approaches to
Act of 2009 (ARRA)               mitigate the risk that projects may not meet the ARRA deadline. As of
requirements. Specifically,      November 1, 2009, 257 projects, totaling $323.9 million, were under contract.
we reviewed: (1) what            This represented only 17 percent of the $1.9 billion in ARRA funds awarded for
impediments exist to having      DWSRF projects. Challenges the States faced included delays in contracting at
projects under contract or       the local level, State and local budget cuts, and difficulty understanding and
construction by February 17,     implementing new ARRA requirements. EPA efforts to assist States included
2010; and (2) what steps EPA     guidance documents, offers of assistance in letters to Governors, State visits,
has taken to ensure projects     phone calls with States, and monitoring information that States submitted.
meet this deadline.
                                 As a result of our audit work, we made three observations about what EPA can do
Background                       to improve its processes for ensuring that States comply with ARRA.
ARRA provided EPA                •   EPA is not aware of projects that are not under contract nationwide. EPA
$2 billion for the National          DWSRF management did not monitor projects at the national level because it
Drinking Water State                 believed that regional-level monitoring was appropriate.
Revolving Fund Program
(DWSRF). The Act also            •   EPA has not established procedures with an action plan and milestone dates
required the EPA                     to assist States with projects not under contract, because it believed that all
Administrator to reallocate          States will meet the deadline. EPA has started to develop procedures for
any funds where the project is       reallocating funds in case States do not meet the deadline.
not under contract or
construction by                  •   EPA’s ARRA Risk Mitigation (Stewardship) Plan does not contain specific
February 17, 2010.                   actions the Agency will take to identify States at risk of not meeting the
                                     deadline. EPA senior management intended the plan to provide the Agency’s
                                     strategy to monitor and mitigate risk in ARRA implementation, but the
                                     DWSRF program did not rely upon the framework.
For further information,
contact our Office of            EPA must reallocate funding if projects are not under contract by February 17,
Congressional, Public Affairs    2010. This reallocation will delay the use of ARRA funding, which will in turn
and Management at                delay the creation of jobs and the jumpstarting of the economy.
(202) 566-2391.

To view the full report,          What We Recommend
click on the following link:
www.epa.gov/oig/reports/2010/    We recommend that EPA identify and monitor projects not under contract,
20091217-10-R-0049.pdf           establish a contingency action plan, complete its written procedures, and specify
                                 the actions it will take in its ARRA Risk Mitigation (Stewardship) Plan.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                        December 17, 2009

MEMORANDUM

SUBJECT:               EPA Action Needed to Ensure Drinking Water State Revolving Fund
                       Projects Meet the American Recovery and Reinvestment Act
                       Deadline of February 17, 2010
                       Report No. 10-R-0049


FROM:                  Melissa M. Heist
                       Assistant Inspector General for Audit

TO:                    Peter S. Silva, Assistant Administrator
                       Office of Water

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determination on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $424,756.

Action Required

We request that you provide a written response to this report by January 8, 2010. You should
include a corrective action plan for addressing the recommendations, with milestone dates for
completing the actions. If you do not concur with the recommendations, please provide
alternative actions for addressing the findings in the report. We have no objections to the further
release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at 202-566-0899 or
heist.melissa@epa.gov, or Janet Kasper at 312-886-3059 or kasper.janet@epa.gov.


cc: Craig Hooks, Assistant Administrator, Office of Administration and Resources Management
EPA Action Needed to Ensure Drinking Water
State Revolving Fund Projects Meet the
American Recovery and Reinvestment Act
Deadline of February 17, 2010

  Briefing Report




                                             1
The American Recovery and Reinvestment Act of 2009
(ARRA)

  z   ARRA had five main purposes:

       z   Preserve and create jobs and promote economic recovery;

       z   Assist those most impacted by the recession;

       z   Provide investments needed to increase economic efficiency by spurring
           technological advances in science and health;

       z   Invest in transportation, environmental protection, and other infrastructure
           that will provide long-term economic benefits; and

       z   Stabilize State and local government budgets, in order to minimize and avoid
           reductions in essential services and counterproductive State and local tax
           increases.




                                                                                          2
Background: DWSRF Program
 z   The National Drinking Water State Revolving Fund
     (DWSRF) Program was established in 1996 by the
     Safe Drinking Water Act. The Act authorized EPA to
     award grants to States which in turn provide low cost
     loans and other assistance to eligible public water
     systems.

 z   In Fiscal Year 2009, Congress appropriated
     $829 million for the DWSRF program. ARRA provided
     $2 billion in funds for DWSRF.

 z   As of November 1, 2009, EPA had awarded over
     $1.9 billion in DWSRF ARRA funds, of which
     $73.8 million was disbursed (under 4%).

                                                             3
New ARRA Requirements
 z   ARRA introduced new requirements to the SRF Program:

      z   Davis Bacon: All laborers and mechanics employed on the funded projects
          must be paid at prevailing labor rates determined by the Secretary of Labor.

      z   Buy American: Projects must use American iron, steel, and manufactured
          goods in the funded projects.

      z   Green Project Reserve: States must use at least 20% of funds for projects to
          address green infrastructure, water or energy efficiency improvements, or
          other environmentally innovative activities.

      z   Reporting: States and agencies must provide specific reports on use of ARRA
          funds.

      z   Reallotment: The EPA Administrator will reallocate funds appropriated
          where projects are not under contract or construction by February 17, 2010
          (12 months after the date of ARRA enactment).
                                             enactment)




                                                                                         4
Audit Objectives

 z What  impediments exist to having
   projects under contract or construction
   by February 17, 2010?

 z What  steps has EPA taken to ensure
   projects meet this deadline?



                                             5
Scope and Methodology
 z   We conducted this performance audit from
     June to December 2009 in accordance with
     Government Auditing Standards issued by the
     Comptroller General of the United States.
     Those standards require that we plan and
     perform the audit to obtain sufficient,
     appropriate evidence to provide a reasonable
     basis for our findings and conclusions based
     on our audit objectives. We believe that the
     evidence obtained provides a reasonable
     basis for our findings and conclusions based
     on our audit objectives.

                                                    6
Scope and Methodology cont’d

 z The   EPA OIG Audit Team:

   z   Focused on DWSRF because other OIG
       teams were focusing their reviews on
       Clean Water SRF projects.

   z   Interviewed EPA Headquarters DWSRF
       staff to determine their internal controls over
       how they are monitoring States’ progress,
       identifying challenges, and mitigating risks.

                                                         7
Scope and Methodology cont’d
   z   Interviewed EPA staff in Regions 3, 4, 5, 6, 9, and
       10 to obtain information about their efforts to
       monitor and assist States in meeting the 12-month
       deadline.

   z   Interviewed States’ DWSRF representatives in
       Arizona, Delaware, Michigan, North Carolina, New
       York, Oregon, and Wisconsin to determine project
       progress for meeting the 12-month deadline. These
       States were selected based on varying climates,
       geographic regions, and dollar amounts of ARRA
       funding. We discussed issues that have impacted
       the pace of projects, and assessed how States
       were monitoring this progress.

                                                             8
Scope and Methodology cont’d
 z   The EPA OIG Audit Team:
     z   Reviewed ARRA and the Office of Management and Budget’s
         (OMB’s) ARRA Implementation Guidance;
     z   Reviewed EPA ARRA Guidance, DWSRF ARRA Program
         Plan, and EPA ARRA Risk Mitigation (Stewardship) Plan;
     z   Reviewed Fiscal Year 2009 and/or 2010 State Intended Use
         Plans and Project Priority Lists for ARRA Funding; and
     z   Compared data from various EPA tracking systems including
         the Project Benefits Reporting (PBR) System, Integrated
         Financial Management System (IFMS), and Office of the Chief
         Financial Officer Reporting and Business Intelligence Tool
         (ORBIT).



                                                                       9
State Discussion Topics
 z   The EPA OIG Audit Team developed a questionnaire as a basis
     for interviews with the seven States. The main topics included:

      z   How many DWSRF ARRA projects were under contract and the
          dollars associated with those projects;

      z   Whether States included language in their loan agreements on
          meeting the 12-month deadline;

      z   Whether States had contingency plans in place for projects that were
          at risk for not meeting the deadline;

      z   What else could EPA do to assist States in ensuring projects meet
          the deadline; and

      z   What specific challenges did States face in meeting the deadline.


                                                                              10
What We Found




                11
Status of Project Progress
 As of November 1, 2009:

 z   In the seven States we reviewed, 97 of 241 (40%)
     planned projects were under contract or construction.

 z   In the PBR system, 42 of these 97 projects were
     reported. The other 55 projects were not in the PBR
     system.

 z   In the PBR system, 257 projects totaling $323.9 million
     were under contract (44 States reporting). This is 17%
     of the $1.9 billion awarded.


                                                             12
State Challenges
 z    States initially needed clarification on ARRA's new
      requirements and subsequent EPA guidance.

 z    ARRA accelerated the base program process in
      getting projects under contract.

                  Process                      Normal (est.)           Recovery Act
                                                                          (est.)
 Appropriation to EPA Grant Award to          1 year*            2 – 6 months*
 States
 Grant Award to Project Under Contract 1 - 2 years*              2 – 12 months**




                                                                                      13
     Source: *Interviews with EPA staff, ** Recovery Act Requirement
State Impediments
 z   Contracting with local government is not a speedy
     process. For example:

     z   Some had their own bidding and contracting procedures;
     z   Some municipalities did not meet in summer months;
     z   Ordinances/Resolutions might have been required; and
     z   Referendums might have delayed/cancelled projects.

 z   States also faced resource challenges including
     budget cuts and furlough days for State employees.

 z   Some States also had to amend statutory authority to
     implement new ARRA requirements.

                                                                  14
Potential Risk 1: Buy American
Waiver Process
 z   EPA Buy American Waiver Process may pose a
     potential risk in getting projects under contract. EPA
     estimates that Buy American waivers will be approved
     two weeks after the final application is submitted by
     the community. We have observed a deviation from
     this timeframe where EPA approval took over a month.
     This indicates a potential risk in getting the projects
     under contract by February 17, 2010.

 z   According to the November 4, 2009, Congressional
     Testimony of EPA’s Senior Accountable Official for
     ARRA Programs, to date, the Agency has issued 23
     project-specific waivers, with more expected in the
     coming months.

                                                           15
Potential Risk 2: ARRA Data
Collection and Reporting
 z   Two of the seven States we interviewed expressed
     concern about resources focused heavily on ARRA
     reporting (as required by section 1512 of the Act).
     States expressed that collecting the required reporting
     data was a strain on State resources. In one State’s
     opinion, the reporting effort took focus away from
     ensuring projects were getting under contract.




                                                               16
Potential Risk 3: ARRA
Noncompliance
 z ARRA    established timeframes for
   projects to be under contract or
   construction. This required local
   recipients to speed up their contracting
   processes. This time frame increases
   the risk of non-compliance with ARRA
   requirements, such as Buy American
   provisions.

                                              17
Other Matters Not Related to the
12-Month Deadline
 z   Two EPA Regions and two of the States we
     interviewed stated that ARRA’s emphasis on
     readiness to proceed or green projects took priority
     over the base program’s emphasis on funding projects
     with the greatest public health needs.




                                                            18
EPA and State Efforts and
Noteworthy Achievements to
Facilitate Project Progress




                              19
EPA Efforts and Achievements:
Headquarters (HQ)
  EPA Senior Management conducted a number of activities to assist
  States in meeting the 12-month deadline. They included:

   z   EPA Administrator sent two letters to State governors expressing her
       commitment to assist and partner with States to achieve the goals of
       ARRA.

   z   EPA Office of Water and Office of Administration and Resources
       Management called State officials who appeared to be facing challenges
       in meeting the deadline.

   z   EPA’s Senior Accountable Official for ARRA Programs met with
       Representatives from the National Governors Association to listen to their
       concerns about the challenges they faced in accomplishing ARRA goals.

   z   EPA’s Senior Accountable Official for ARRA Programs sent emails to
       ARRA Leads in each State reminding States of the February 17, 2010,
       deadline and offering Agency assistance to the States.




                                                                                    20
EPA Efforts and Achievements: HQ
cont’d
   z   Office of Water established a National Water Program Economic Recovery
       Management Team.

   z   Headquarters DWSRF program staff visited Regions and conducted
       conference calls with States.

   z   The DWSRF Program conducted webcasts for stakeholders on
       Buy American, Davis Bacon, Green Reserve, and 1512 Reporting.

   z   EPA established a Buy American waiver process for project-specific waivers.

   z   The DWSRF Program issued guidance on ARRA requirements.

   z   The DWSRF Program established the PBR System to track project level data.

   z   The DWSRF Program conducted State analysis of financial drawdown and
       project progress data starting in October 2009, and weekly thereafter.




                                                                                     21
EPA Efforts and Achievements:
Regions
   z   EPA Regions talked with States weekly or bi-weekly
       in the six Regions we interviewed.

   z   EPA Region 6 reported State project progress to the
       Regional Administrator on a weekly basis.

   z   EPA Region 4 Regional Administrator held
       conference calls with State Commissioners.

   z   EPA Regions 5 and 6 tracked State progress and
       updated information daily or weekly as projects
       came under contract.


                                                             22
EPA Efforts and Achievements:
Regions cont’d
   z   EPA Region 5 conducted a regular analysis of
       States’ draw downs of ARRA funds and compared
       the amounts to progress reported in PBR.

   z   Regions conducted joint training with the OIG to
       sub-recipients, contractors, and vendors on ARRA
       requirements and prevention of fraud, waste, and
       abuse.

   z   Regional staff, in conjunction with an EPA
       contractor, are conducting on-site reviews of
       some DWSRF ARRA and base program projects
       (August 2009 – January 2010).


                                                          23
State Efforts and Achievements

 z   Five States included language in their loan
     agreements/binding commitments with sub-recipients
     about meeting the February 17, 2010, deadline.

 z   All seven States established contingency dates or
     interim milestones prior to February 17, 2010, to
     assess project progress and potentially move funds to
     another project if projects are not ready to proceed to
     contract by the deadline.




                                                               24
State Efforts and Achievements
cont’d
 z   The State of Arizona established a more stringent
     deadline of requiring projects to be under construction
     by February 17, 2010, not just under contract.

 z   The States of Arizona, Oregon, and New York
     planned to switch out funding from ARRA to base
     program if projects were identified as not ready to
     proceed to contract by the deadline.




                                                               25
Chart of State Contingency Dates
and Actions
 State    Contingency                             Action
             Date

AZ       Jan 1, 2010    Contracts signed and submitted to State. On
                        January 2, 2010, State will terminate loan contracts with
                        construction start dates beyond February 17, 2010.

DE       Jan 1, 2010    Contracts signed. If not, State will move ARRA funding
                        to other projects ready to proceed and substitute base
                        funding.

MI       Jan 22, 2010   Loans must be signed. Notices to Proceed by
                        February 17, 2010. If not, State will move funds to other
                        projects already under contract.

NC       Oct 1, 2009    Contracts signed. If not, State might move ARRA funds
                        to other eligible projects ready to proceed.


                                                                                26
State Contingency Dates cont’d
State Contingency                       Action
         Date
NY   Jan 1, 2010    Contracts signed. If not, State will move ARRA
                    funds to other projects and substitute base
                    funding.
OR   Feb 16, 2010   Contracts signed. If not, State will move ARRA
                    funds to other projects and substitute base
                    funding.
WI   Oct 1, 2009    Contracts signed. If not, State planned to move
                    ARRA funds to other eligible projects on the
                    funding list. Remaining funds will be used to
                    increase principal forgiveness of projects
                    already under contracts.


                                                                     27
Conclusion

 z Statesare facing a myriad of challenges:
  local government contracting, resource
  issues, and understanding and
  implementing ARRA requirements.

 z EPA and States have used varying
  approaches to mitigate the risks for
  projects not being able to meet the
  ARRA deadline.

                                              28
Observations and
Recommendations




                   29
ARRA Requirements
  ARRA states that:

  “… the Administrator shall reallocate funds
  appropriated herein for the Clean and Drinking Water
  State Revolving Funds (Revolving Funds) where
  projects are not under contract or construction within
  12 months of the date of enactment of this Act … ”




                                                           30
EPA Guidance
 z   EPA’s SRF ARRA Guidance states:

      “The Administrator must reallocate any funds that do
     not meet the required deadline for contracts or
     construction. In order to implement this provision,
     EPA will deobligate funds from awarded grants that
     have not been committed to projects and that are not
     under contract or construction by February 17, 2010.”




                                                             31
Observation 1
 z   EPA ARRA Guidance and grant agreements
     require States to use the PBR system to track
     project-level data on a weekly basis. States
     are required to report loan agreements
     executed and first and last construction
     contracts signed for the project.

 z   Government Accountability Office Internal
     Control Standards state that information
     should be recorded and communicated to
     management to determine whether the
     organization is meeting its goals.

                                                     32
Observation 1 cont’d
 z   EPA is not aware of projects not under contract on a national level. The
     PBR system only captures project-specific information once the State
     has executed a loan agreement with local borrowers. It does not capture
     projects not under contract, or projects under contract that do not have a
     loan agreement executed.

 z   Not all the Regions are collecting information from States about projects
     not under contract. The Agency does not know whether States will have
     all projects in compliance with the February 17, 2010, deadline. For
     example:

      z   Regions lacked a consistent approach in monitoring States’ progress
          toward meeting the February 17, 2010, deadline. One Region is
          monitoring projects not under contract, while another Region is
          monitoring States by comparing PBR data to State financial draws,
          as required by EPA ARRA Monitoring Guidance.




                                                                                  33
Observation 1 (cont’d)
 z   EPA DWSRF management believes that project-level
     monitoring is appropriately carried out at the regional
     rather than the national level and expects Regions'
     approaches to vary according to the specific needs
     and circumstances that Regions encounter in working
     with States. EPA DWSRF management noted that no
     State intends to face reallotment.

 z   EPA cannot be informed about State progress if they
     don't collect critical information from States to
     determine if projects will be under contract or
     construction by the February 17, 2010 deadline.



                                                               34
Observation 2
 z   OMB Circular A-123 states that internal controls are
     an integral component of an organization’s
     management that provides reasonable assurance that
     the Agency complies with laws and regulations.
     February, 17, 2010, is a key compliance deadline and
     internal controls have not been fully established to
     provide a reasonable assurance this deadline will be
     met.

 z   EPA discussed reallotment in March 2009 guidance to
     recipients, and is developing more detailed procedures
     on the reallotment process.


                                                            35
Observation 2 cont’d
 z   EPA has communicated the importance of meeting
     February 17, 2010, to States. However, EPA has not
     established procedures with an action plan and
     milestone dates, to assist States that have a large
     number of proposed projects not under contract prior
     to the deadline because it believes all States will meet
     the deadline. This belief contrasts sharply with the
     reality that only 17 percent of the funds were under
     contract as of November 1, 2009, 3 ½ months before
     the ARRA deadline.

 z   Without developing and implementing an action plan,
     EPA cannot provide a reasonable assurance that the
     ARRA compliance deadline will be met.

                                                                36
Observation 3
 z   OMB's ARRA Implementation Guidance Section 3.12
     states:
         “...agencies should develop mitigation plans that
         align with specific risks. At a minimum, agencies
         should prepare mitigation plans for those risks
         with the highest probability of occurrence and the
         greatest impact if not mitigated. Whenever
         possible, agencies should identify quantifiable
         measures of performance, including ranges of
         acceptable and unacceptable performance. Along
         with mitigation actions, agencies should also
         identify a "trigger" to determine if it should initiate
         a contingency plan. Triggers could include
         program performance falling outside of an
         acceptable range or not completing critical actions
         by specific dates.”
                                                                   37
Observation 3 cont’d

 z On  July 8, 2009, the Acting Chief
   Financial Officer, in announcing the
   Stewardship Plan, stated: "The
   Stewardship Plan lays out the Agency's
   strategy to monitor and mitigate risk in
   the implementation of the Recovery Act.”




                                              38
Observation 3 cont’d

 z   EPA’s ARRA Risk Mitigation (Stewardship) Plan does not contain
     specific actions be taken to identify States at risk for not meeting
     the February 17, 2010, deadline.

      z   Example 1: EPA does not collect the information to identify
          at-risk projects. The Plan requires monitoring activities to identify
          points at which EPA would be alerted to a problem. EPA planned to
          collect monitoring information from the PBR system, site visits, and
          phone calls to States. However, the EPA March 2 ARRA guidance
          only requires States to put data into PBR when a loan agreement is
          executed. PBR does not capture information on those projects
          without an executed loan agreement. Therefore, EPA does not have
          the information it needs to identify State projects at risk for not having
          contracts signed by February 17, 2010.




                                                                                   39
Observation 3 cont’d
   z   Example 2: EPA does not identify a responsible
       official or an action to be taken in response to an
       identified risk. The Plan does not specify the points
       at which additional action will be taken once a risk
       is identified. The Plan also does not assign the EPA
       official responsible for ensuring additional mitigation
       actions are taken when needed.




                                                             40
Observation 3 cont’d
     z   Example 3: Agency does not describe contingency
         plans. The Plan does not describe the actions the
         Agency will take when monitoring and control
         activities indicate that there is an increased risk that
         goals are not met prior to the February 17, 2010,
         deadline.

 z   EPA DWSRF management stated its actions to ensure
     projects are under construction by the deadline has
     not been restricted to the framework of the ARRA
     stewardship plan. While the DWSRF is taking action
     to address the risk of noncompliance with the law, the
     stewardship plan is not fully serving as the framework
     EPA senior management intended it to be.

                                                                41
Possible Outcomes
 z   States will be subject to Agency reallotment of
     funds if projects are not under contract by
     February 17, 2010.

 z   Reallotment will delay the use of ARRA
     funding and therefore the impact of creating
     jobs and jumpstarting the economy.

 z   Section 1603 of ARRA stipulates the Agency
     will lose funding if funds are not obligated by
     September 30, 2010.

                                                       42
Recommendations




                  43
Recommendation 1

 The Assistant Administrator for the Office
 of Water should establish a nationwide
 and consistent process to identify and
 monitor the progress of DWSRF projects
 prior to February 17, 2010, that are not
 under contract or construction.



                                              44
Recommendation 2.1

 The Assistant Administrator for the Office
 of Water should establish and implement
 an action plan, with milestone dates, by
 which it will request contingency actions
 from States prior to February 17, 2010, for
 those projects identified as not being
 under contract or construction.


                                           45
Recommendation 2.2

 The Assistant Administrator for the Office
 of Water should complete its written
 procedures for reallocating the funds for
 States that do not meet the deadline.




                                              46
Recommendation 3

 The Assistant Administrator for the Office
 of Water should specify the actions it will
 take to address the risk that projects will
 not meet the February 17, 2010, deadline
 in EPA’s ARRA Risk Mitigation
 (Stewardship) Plan.



                                               47
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                           Subject                         Status1       Action Official           Date      Amount      Amount

     1       44     Establish a nationwide and consistent process to                 Assistant Administrator,
                    identify and monitor the progress of DWSRF                           Office of Water
                    projects prior to February 17, 2010, that are not
                    under contract or construction.

    2.1      45     Establish an action plan with milestone dates, by                Assistant Administrator,
                    which it will request contingency actions from                       Office of Water
                    States prior to February 17, 2010, for those
                    projects identified as not being under contract or
                    construction.

    2.2      46     Complete its written procedures for reallocating the             Assistant Administrator,
                    funds for States that do not meet the deadline.                      Office of Water

     3       47     Specify the actions it will take to address the risk             Assistant Administrator,
                    that projects will not meet the February 17, 2010,                   Office of Water
                    deadline in EPA’s ARRA Risk Mitigation
                    (Stewardship) Plan.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                48
                                                                              Appendix A

                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Water
Assistant Administrator, Office of Administration and Resources Management
Regional Administrators, Regions 1-10
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Deputy Assistant Administrator, Office of Water
Director, Office of Ground Water and Drinking Water, Office of Water
Deputy Director, Office of Ground Water and Drinking Water, Office of Water
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Water
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinators, Regions 1-10
Acting Inspector General




                                            49
